           ",£ll V !CEs
     ~~.+g-,..viCES.Ú'.




~
 "
..
 ('"                  ~       DEPKRTMENT OF HEALTH
                              DEPA'RTMENT          & HUMAN
                                            HEALTH &       SERVICES
                                                     HUMA SERVICES                                                                    Office
                                                                                                                                      Office of
                                                                                                                                              ofInspector
                                                                                                                                                 InspectorGeneral
                                                                                                                                                          General

      <~~~~
~
'ó                                                                                                                                    Washington,
     ~..                                                                                                                               Washington, D.C.
                                                                                                                                                    D.C. 20201
                                                                                                                                                         20201
       ~.I..lf"'daa

                                                                                FEB 4 42009

                                                                                FEB      2009 





                          TO:
                          TO: Charlene  Frizzera
                                   Charlene Frizzera
                                             Acting Administrator
                                             Acting  Administrator



                                                                         ~¡/;l~
                                             Centers for
                                             Centers for Medicare
                                                         Medicare && Medicaid
                                                                     Medicaid Services
                                                                              Services


                          FROM:
                          FROM:              Daniel R. Levinson
                                                       Levinson
                                                       General
                                             Inspector General


                          SUBJECT: Review
                          SUBJECT:   Review
                                          of of State
                                             State    Plan
                                                   Plan    AmendmentsAuthorizing
                                                         Amendments    AuthorizingDisproportionate
                                                                                     DisproportionateShare
                                                                                                      ShareHospital
                                                                                                           Hospital
                                                  Pennsylvania to
                                     Payments by Pennsylvania  to Hospitals of State-Related
                                                                  Hospitals of State-Related Universities
                                                                                             Universities
                                             (A-03-07-00222)
                                             (A-03-07 -00222)


                          Attached is an advance copy of                 of our final report on State plan amendments (SPA) authorizing  authorizing
                          disproportionate share
                          disproportionate            share hospital (DSH) payments      payments by  by Pennsylvania
                                                                                                         Pennsylvana toto hospitals   ofState-related
                                                                                                                           hospitals of  State-related
                          universities.        We     will   issue    this   report     to  the   Pennsylvania
                          universities. We wil issue this report to the Pennsylvania Departent of 
            Department    of   Public Welfare  (the
                          State agency)
                                   agency) withinwithin 55 business
                                                                business days.days. This audit was part        ofan
                                                                                                          par of an initiative
                                                                                                                     initiative to
                                                                                                                                 to determine
                                                                                                                                    determine the extent
                          to which State Medicaid agencies have contracted with consultants through contingency fee
                          arrangements
                          arangements and       and the       effect of
                                                       the effect      of those arrangements
                                                                                     arangements on the submission of       of questionable or
                          improper       claims      to  the   Federal
                          improper claims to the Federal Governent.         Government.

                          As recommended
                              recommended by   by its
                                                  its consultant, the State agency submitted to the Centers for Medicare
                          &
                          & Medicaid
                             Medicaid Services
                                        Services (CMS)
                                                   (CMS) SPAs authorizing
                                                                   authorizing DSH
                                                                                DSH payments
                                                                                      payments for
                                                                                                 for State
                                                                                                     State fiscal
                                                                                                           fiscal years
                                                                                                                   years (FY)
                                                                                                                         (FY) 2005­
                                                                                                                                2005­
                          06,2006-07,    and  2007-08    to the  three hospitals associated
                          06,2006-07, and 2007-08 to the three hospitals associated          with State-related   universities.
                                                                                                                  universities. The
                          SPAs   authorized   DSH   payments    to ensure  services to the
                          SP As authorized DSH payments to ensure services to the medical  medical  assistance  population   and to
                          help
                          help offset
                                offset medical
                                       medical education
                                                education costs
                                                             costsincurred
                                                                    incured by the three
                                                                                    three hospitals.  CMS approved
                                                                                           hospitals. CMS    approved the SPAs
                                                                                                                            SPAs for
                                                                                                                                   for
                          FYs  2005-06   and   2006-07    prior
                          FY s 2005-06 and 2006-07 prior to     to our review.   After we
                                                                        review. After we   completed   our review,   CMS   approved
                          the
                          the SPA
                              SPA for
                                    for State
                                        State FY
                                               FY 2007-08.
                                                   2007-08.

                          Our
                          Our objective
                               objectivewas
                                         wastotodetermine
                                                 determine whether
                                                           whetherthethethree
                                                                         thee hospitals retained DSH payments intended to
                                                                                                                       to
                          offset the medical assistance
                          offset the medical assistance share of their
                                                                 their medical education   costs under the State plan.
                                                                                                                 plan.

                          One
                           One of
                                ofthe
                                   thethree
                                        threehospitals
                                              hospitalsretained
                                                          retained its
                                                                    itsDSH
                                                                       DSHpayments.
                                                                              payments. However, the two other hospitals did     did not
                                                                                                                                     not
                          retain
                          retain their
                                  their DSH
                                        DSHpayments,
                                               payments, andand the universities
                                                                     universities that received
                                                                                       received the money may not have used it to     to
                          help offset  the medical    assistance  share  of their medical   education  costs  in compliance
                          help offset the medical assistance share of their medical education costs in compliance with the     with the
                          SPAs.
                           SP As.TheThetwo
                                         twohospitals
                                              hospitalsredirected
                                                         redirectedtototheir
                                                                        theiruniversity
                                                                               universitymedical
                                                                                           medicalschools       totalof
                                                                                                    schoolsaatotal    of$17.3
                                                                                                                         $17.3million
                                                                                                                                milion
                          (Federal   share) in  State FY   2005-06    and $17.8   million  (Federal share)  in State
                           (Federal share) in State FY 2005-06 and $17.8 milion (Federal share) in State FY 2006-07.  FY  2006-07.
                          The
                           Thetwo
                                twohospitals
                                      hospitalsdid
                                                 didnot
                                                     notrequire
                                                         requirethe
                                                                  themedical
                                                                       medicalschools
                                                                                 schoolstotoaccount
                                                                                             accountfor
                                                                                                      forhow
                                                                                                          howtheytheyused
                                                                                                                      usedthe
                                                                                                                            thefunds.
                                                                                                                                fuds.
                          Therefore,
                           Therefore,we wecould
                                            couldnotnotdetermine
                                                        determinewhether
                                                                     whetherthethemedical
                                                                                   medicalschools
                                                                                             schoolsused
                                                                                                      usedthe
                                                                                                            theDSH
                                                                                                                 DSHfunds
                                                                                                                       fuds in
                                                                                                                             in
Page 2 – Charlene Frizzera


compliance with the SPAs. Officials of the three hospitals informed us that the State had
instructed the hospitals to redirect the DSH funds provided under the SPAs, including Federal
matching funds, to the universities associated with the hospitals.

We recommend that the State agency work with CMS to resolve:

   •	 $17,327,381 (Federal share) in DSH payments redirected to university medical schools in
      State FY 2005–06 and $17,786,638 (Federal share) in State FY 2006–07 and

   •	 DSH payments redirected to university medical schools after our review period, including
      any portion of the $25.5 million estimated Federal share for State FY 2007–08.

In written comments on our draft report, the State agency said that CMS had approved the SPAs
for the 3 State FYs. The State agency agreed to work with CMS on any future academic medical
center SPAs but said that it was not aware of any Federal regulation or legislation that requires
the hospitals to retain their DSH payments.

Because two hospitals did not require their associated medical schools to account for how they
used DSH funds in State FYs 2005–06 and 2006–07, we could not determine whether the funds
were used in compliance with the SPAs. We revised our second recommendation to
acknowledge CMS’s approval of the SPA for State FY 2007–08 subsequent to our review. We
support our recommendations, as revised, and agree that the State agency should work with CMS
on any future academic medical center SPAs.

If you have any questions or comments about this report, please do not hesitate to call me, or
your staff may contact George M. Reeb, Assistant Inspector General for the Centers for
Medicare & Medicaid Audits, at (410) 786-7104 or through e-mail at George.Reeb@oig.hhs.gov
or Stephen Virbitsky, Regional Inspector General for Audit Services, Region III, at
(215) 861-4470 or through e-mail at Stephen.Virbitsky@oig.hhs.gov. Please refer to report
number A-03-07-00222.


Attachment
DEPARTMENT OF
DEPARTMENT  OFHEALTH
               HEALTH  HUMAN
                     & & HU
                          ,
                             SERVICES
                            SERVICES              .                                          OFFICE
                                                                                             OFFICEOF
                                                                                                    OF INSPECTOR  GENERA
                                                                                                        INSPECTOR GENERAL

                                                                                             Offce
                                                                                             OfficeofofAudit
                                                                                                        AuditServices,
                                                                                                              Services,Region
                                                                                                                       Region III
                                                                                                                               III
                                                                                             Public
                                                                                              PublicLedger
                                                                                                      LedgerBuilding,
                                                                                                             Building,Suite
                                                                                                                       Suite316
                                                                                                                             316
                                                                                             150
                                                                                              156 S.
                                                                                                  S. Independence
                                                                                                     IndependenceMall
                                                                                                                   Mall West
                                                                                                                        West
                                                                                             Philadelphia,
                                                                                             Philadelphia,PAPA19106-3499
                                                                                                                19106·3499



                                                      FEB-9-92009

                                                      FE       2009 



Report Number: A-03-07-00222
Report         A-03-07-00222

Mr. Theodore
Mr.    Theodore Dallas  Dallas
Executive Deputy Secretary
Executive                   Secretar
Pennsylvania
Pennsylvana Deparent ofDepartment  ofPublic
                                     Public Welfare
                                            Welfare
P.O. BoxBox 26752675
Harrisburg,         Pennsylvania 17105-2675

Harsburg, Pennsylvana              17105-2675 


Dear Mr. Dallas:
Dear

Enclosed is the U.S. Department of Health
Enclosed is the U.S. Deparent of 
     Health    andServices
                                            and Human  Human (HHS),Services
                                                                    Offce of
  (HHS), Office of Inspector
General (OIG), final report entitled "Review
                                       "Review of   of State
                                                        State Plan
                                                                Plan Amendments Authorizing
Disproportionate Share Hospital Payments by Pennsylvania
                                                      Pennsylvana to      to Hospitals
                                                                              Hospitals of
                                                                                        ofState-Related
                                                                                           State-Related
Universities." We
               We wilwillforward
                          forwardaacopy
                                     copyofofthis
                                               this report
                                                      report toto the
                                                                   the HHS
                                                                        IlliS action
                                                                               action offcial
                                                                                      officialnoted
                                                                                               noted on
                                                                                                     on the
                                                                                                        the
followingpage
following page for
                for review
                     reviewand
                             and any
                                  any action
                                      action deemed
                                               deemed necessary.
                                                          necessar.

The IlliS
       HHS action official will                make final
                                        wil make         fmal determnation
                                                                 determinationasastotoactions
                                                                                       actionstaken
                                                                                                takenononall
                                                                                                          all matters
                                                                                                              matters reported.
                                                                                                                       reported.
We    request      that   you    respond       to  this   official    within
We request that you respond to this offcial withn 30 days from the date of 
 30 days  from  the  date    this
                                                                                                      ofthis  ¡etter.
                                                                                                              ietter. Your.
                                                                                                                      Your·
response should present any comments or additional information                 infonnation that you believe may have a
bearing
bearng on    on the final
                        final determination.
                                detennination.

Pursuant
Pursuant to theto  the principles
                priciples of          of the    Freedom
                                          the Freedom of 
  of Information Act, 5 U.S.C. § 552, as amended by
Public Law 104-231, OIG reports generally are made available to the public to the extent the
information
information is      is not
                        not subject
                              subject to
                                       to exemptions
                                           exemptionsin    inthe
                                                              theAct
                                                                  Act(45
                                                                      (45CFR
                                                                          CFRpart
                                                                               par 5). Accordingly, this report
                                                                                   5). Accordingly,
will   be   posted
wil be posted          on    the Internet   at http://oig.hhs.gov.
                                 Internet at htt://oig.hhs.gov.

If
If you
    you have
           have any
                 any questions
                     questions or
                               or comments
                                  comments about
                                             about this report, please
                                                    ths report, please do
                                                                       do not hesitate to call me,
                                                                                               me, or
contact     Robert
contact Robert 
   Baiocco,
                    Baiocco, Audit Manager,
                                    Manager, at (215)   861-4486 or through e-mail
                                                 (215) 861-4486               e-mail at
                                                                                     at
Robert.Baiocco@oig;hhs.gov.
Robert.Baioccocmoig"hhs.gov. Please refer to report number A-03-07-00222 all
                                    Please refer to report number   A-03-07-00222   in  all
correspondence.
correspondence.




                                                          J~~
                                                           Sincerely,
                                                           Sincerely,



                                                           Stephen
                                                           Stephen Virbitsky
                                                                    Virbitsky
 

                                                           Regional
                                                           Regional Inspector
                                                                      Inspector General
                                                                                General
                                                              for Audit
                                                             for  Audit Services
                                                                        Services


Enclosure
Enclosure
Page 2 – Mr. Theodore Dallas


Direct Reply to HHS Action Official:

Ms. Jackie Garner
Consortium Administrator
Consortium for Medicaid and Children’s Health Operations
Centers for Medicare & Medicaid Services
233 North Michigan Avenue, Suite 600
Chicago, Illinois 60601
Department of Health and Human Services

             OFFICE OF 

        INSPECTOR GENERAL 




   REVIEW OF STATE PLAN 

 AMENDMENTS AUTHORIZING 

  DISPROPORTIONATE SHARE 

   HOSPITAL PAYMENTS BY 

 PENNSYLVANIA TO HOSPITALS 

     OF STATE-RELATED 

       UNIVERSITIES





                    Daniel R. Levinson

                     Inspector General 


                      February 2009

                      A-03-07-00222

                    Office of Inspector General
                                      http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services (HHS)
programs, as well as the health and welfare of beneficiaries served by those programs. This
statutory mission is carried out through a nationwide network of audits, investigations, and
inspections conducted by the following operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits examine
the performance of HHS programs and/or its grantees and contractors in carrying out their
respective responsibilities and are intended to provide independent assessments of HHS
programs and operations. These assessments help reduce waste, abuse, and mismanagement and
promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS,
Congress, and the public with timely, useful, and reliable information on significant issues.
These evaluations focus on preventing fraud, waste, or abuse and promoting economy,
efficiency, and effectiveness of departmental programs. To promote impact, OEI reports also
present practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of
fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, OI utilizes its resources by
actively coordinating with the Department of Justice and other Federal, State, and local law
enforcement authorities. The investigative efforts of OI often lead to criminal convictions,
administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG,
rendering advice and opinions on HHS programs and operations and providing all legal support
for OIG’s internal operations. OCIG represents OIG in all civil and administrative fraud and
abuse cases involving HHS programs, including False Claims Act, program exclusion, and civil
monetary penalty cases. In connection with these cases, OCIG also negotiates and monitors
corporate integrity agreements. OCIG renders advisory opinions, issues compliance program
guidance, publishes fraud alerts, and provides other guidance to the health care industry
concerning the anti-kickback statute and other OIG enforcement authorities.
                            Notices



       THIS REPORT IS AVAILABLE TO THE PUBLIC
                 at http://oig.hhs.gov

Pursuant to the principles of the Freedom of Information
                                              Information Act, 5 U.S.C.
§ 552, as amended by Public Law 104-231, Office of Inspector General
reports generally are made available to the public to the extent the
                                                             part 5).
information is not subject to exemptions in the Act (45 CFR part

 OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

The designation of financial or management practices
                                              practices as questionable, a
recommendation for the disallowance of costs incurred or claimed, and
any other conclusions and recommendations in this report represent the
findings and opinions of OAS. Authorized officials of the HHS operating
divisions will make final determination on these matters.
                                  EXECUTIVE SUMMARY 


BACKGROUND

Pursuant to Title XIX of the Social Security Act (the Act), the Medicaid program provides
medical assistance to low-income individuals and individuals with disabilities. The Federal and
State Governments jointly fund and administer the Medicaid program. At the Federal level, the
Centers for Medicare & Medicaid Services (CMS) administers the program. Each State
administers its Medicaid program in accordance with a CMS-approved State plan. Although the
State has considerable flexibility in designing and operating its Medicaid program, it must
comply with applicable Federal requirements. In Pennsylvania, the Department of Public
Welfare (the State agency) administers the Medicaid program.

Section 1923 of the Act requires that States make Medicaid disproportionate share hospital
(DSH) payments to hospitals that serve a disproportionately large number of low-income
patients. The Omnibus Budget Reconciliation Act of 1993 limits these payments to the annual
costs incurred to provide services to Medicaid and uninsured patients less payments received for
those patients.

The State agency contracted with Maximus, Inc. (Maximus), on a contingency fee basis to
generate Federal funding for State programs. As recommended by Maximus, the State agency
submitted State plan amendments (SPA) that authorized DSH payments for State fiscal years
(FY) 2005–06, 2006–07, and 2007–08 to the three hospitals associated with State-related
universities (the three hospitals). The SPAs authorized DSH payments to ensure services to the
medical assistance population and to help offset medical education costs incurred by the three
hospitals. CMS approved the SPAs for State FYs 2005–06 and 2006–07 prior to our review.
After we completed our review, CMS approved the SPA for State FY 2007–08.

This report is part of an Office of Inspector General initiative to determine the extent to which
State Medicaid agencies have contracted with consultants through contingency fee arrangements
and the effect of those arrangements on the submission of questionable or improper claims to the
Federal Government.

OBJECTIVE

Our objective was to determine whether the three hospitals retained DSH payments intended to
offset the medical assistance share of their medical education costs under the State plan.

SUMMARY OF FINDING

One of the three hospitals, Penn State Milton S. Hershey Medical Center, retained its DSH
payments, including a Federal share of $7.6 million in State FY 2005–06 and $7.8 million in
State FY 2006–07. However, the two other hospitals did not retain their DSH payments, and the
universities that received the money may not have used it to help offset the medical assistance
share of their medical education costs in compliance with the SPAs. Specifically, the University
of Pittsburgh Medical Center—Presbyterian/Shadyside (Presbyterian) and Temple University



                                                i
Hospital (Temple) redirected to their university medical schools a total of $17.3 million (Federal
share) in State FY 2005–06 and $17.8 million (Federal share) in State FY 2006–07. The two
hospitals did not require the medical schools to account for how they used the funds.
Accordingly, we could not determine whether the medical schools used the DSH funds in
compliance with the SPAs.

Before State FY 2005–06, the State made annual appropriations to the three State-related
universities expressly for medical education. Beginning in State FY 2005–06, the State
eliminated express appropriations for medical education from its appropriation bills. Officials of
the three hospitals informed us that the State had instructed the hospitals to redirect the DSH
funds provided under the SPAs, including Federal matching funds, to the universities associated
with the hospitals.

RECOMMENDATIONS

We recommend that the State agency work with CMS to resolve:

   •	 $17,327,381 (Federal share) in DSH payments redirected to university medical schools in
      State FY 2005–06 and $17,786,638 (Federal share) in State FY 2006–07 and

   •	 DSH payments redirected to university medical schools after our review period, including
      any portion of the $25.5 million estimated Federal share for State FY 2007–08.

STATE AGENCY COMMENTS

In written comments on our draft report, the State agency said that CMS had approved the SPAs
for State FYs 2005–06, 2006–07, and 2007–08. The State agency agreed to work with CMS on
any future academic medical center SPAs but said that it was not aware of any Federal regulation
or legislation that requires the three hospitals to retain their DSH payments. The State agency’s
comments are presented in their entirety as the Appendix.

OFFICE OF INSPECTOR GENERAL RESPONSE

Because Presbyterian and Temple did not require their associated medical schools to account for
how they used DSH funds in State FYs 2005–06 and 2006–07, we could not determine whether
the funds were used in compliance with the SPAs. We revised our second recommendation to
acknowledge CMS’s approval of the SPA for State FY 2007–08 subsequent to our review. We
support our recommendations, as revised, and agree that the State agency should work with CMS
on any future academic medical center SPAs.




                                                ii
                                                 TABLE OF CONTENTS 


                                                                                                                          Page

INTRODUCTION..............................................................................................................1 


          BACKGROUND .....................................................................................................1         

              Medicaid and the Disproportionate Share Hospital Program ......................1 

              Hospitals Associated With Pennsylvania’s State-Related Universities.......1 

              The State Agency’s Use of a Consultant .....................................................1 


          OBJECTIVE, SCOPE, AND METHODOLOGY ...................................................2 

               Objective ......................................................................................................2    

               Scope............................................................................................................2   

               Methodology ................................................................................................3        


FINDING AND RECOMMENDATIONS.......................................................................4 


          FEDERAL AND STATE PLAN REQUIREMENTS .............................................4 

               Federal Requirements ..................................................................................4             

               State Plan Amendments ...............................................................................4               


          DISPROPORTIONATE SHARE HOSPITAL PAYMENTS REDIRECTED
           TO MEDICAL SCHOOLS...................................................................................5 

               Presbyterian..................................................................................................5      

               Temple ........................................................................................................5     


          ACTIONS TAKEN BY THE CENTERS FOR MEDICARE 

           & MEDICAID SERVICES...................................................................................6 


          RECOMMENDATIONS.........................................................................................7                 


          STATE AGENCY COMMENTS............................................................................7 


          OFFICE OF INSPECTOR GENERAL RESPONSE ..............................................7 


APPENDIX

          STATE AGENCY COMMENTS




                                                                   iii
                                               INTRODUCTION 


BACKGROUND

Medicaid and the Disproportionate Share Hospital Program

Pursuant to Title XIX of the Social Security Act (the Act), the Medicaid program provides
medical assistance to low-income individuals and individuals with disabilities. The Federal and
State Governments jointly fund and administer the Medicaid program. At the Federal level, the
Centers for Medicare & Medicaid Services (CMS) administers the program. Each State
administers its Medicaid program in accordance with a CMS-approved State plan. Although the
State has considerable flexibility in designing and operating its Medicaid program, it must
comply with applicable Federal requirements. In Pennsylvania, the Department of Public
Welfare (the State agency) administers the Medicaid program. During the audit period,
Pennsylvania’s Federal share ranged from 53.84 percent to 55.05 percent.

Section 1923 of the Act requires that States make Medicaid disproportionate share hospital
(DSH) payments to hospitals that serve a disproportionately large number of low-income
patients. The Omnibus Budget Reconciliation Act of 1993 limits these payments to the annual
costs incurred to provide services to Medicaid and uninsured patients less payments received for
those patients. This limit is known as the hospital-specific DSH limit.

Hospitals Associated With Pennsylvania’s State-Related Universities

During our audit period (State fiscal years (FY) 2005–06 and 2006–07), 1 the State agency made
some DSH payments to the three hospitals associated with State-related universities (the three
hospitals):

       •   Penn State Milton S. Hershey Medical Center (Hershey),

       •   University of Pittsburgh Medical Center—Presbyterian/Shadyside (Presbyterian), and

       •   Temple University Hospital (Temple).

Before our audit period, Pennsylvania provided appropriated funds to each State-related
university, including its medical school and associated hospital. Each of the three hospitals is a
legal entity separate from its associated university medical school.

The State Agency’s Use of a Consultant

The Office of Inspector General is conducting a nationwide initiative to determine the extent to
which State Medicaid agencies have contracted with consultants through contingency fee
arrangements and the effect of those arrangements on the submission of questionable or
improper claims to the Federal Government. In Pennsylvania, the State agency contracted with

1
    Pennsylvania’s FY is July 1 through June 30. State FY 2005–06 began July 1, 2005.


                                                          1

Maximus, Inc. (Maximus), on a contingency fee basis to generate Federal funding for State
programs. The State agency paid Maximus a contingency fee of $1,220,865 for securing
$24.9 million in Federal matching funds for State FY 2005-06. The State agency did not claim a
Federal share of that contingency fee. (We did not review the contingency fee arrangements for
State FYs 2006-07 and 2007-08.)

As recommended by Maximus, the State agency submitted State plan amendments (SPA) that
authorized DSH payments limited to the three hospitals for State FYs 2005–06, 2006–07, and
2007–08 (SPAs 05-014, 06-006, and 07-017, respectively). The SPAs authorized DSH payments
to ensure services to the medical assistance population and to help offset medical education costs
incurred by the three hospitals. CMS approved the first two SPAs prior to our review. On
June 26, 2008, after we completed our review, CMS approved the SPA for State FY 2007–08.

In its letter approving the SPA for State FY 2005–06, CMS informed the State agency that
CMS’s Philadelphia regional office would verify that DSH payments did not exceed the hospital-
specific DSH limit of each of the three hospitals. At CMS’s request, we conducted those
reviews, and we issued a report on each hospital to the State agency. 2 Each report found that
DSH payments that the State agency claimed complied with the hospital-specific DSH limit.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether the three hospitals retained DSH payments intended to
offset the medical assistance share of their medical education costs under the State plan.

Scope

This review covered the SPAs that authorized DSH payments to the three hospitals for State
FYs 2005–06 and 2006–07. For State FY 2005–06, the State agency made $45.5 million
($24.9 million Federal share) in DSH payments to the three hospitals, as authorized by the SPA.
For State FY 2006–07, the DSH payments totaled $46.9 million ($25.6 million Federal share).

We did not perform an indepth review of the State agency’s internal control structure; however,
we made a limited assessment of the fiscal controls related to DSH claims submitted for Federal
reimbursement.

We conducted our fieldwork at the State agency in Harrisburg, Pennsylvania, and at the business
offices of the three hospitals in Hershey, Pittsburgh, and Philadelphia, Pennsylvania.



2
 “Review of Disproportionate Share Hospital Payments Made by Pennsylvania to Temple University Hospital for
State Fiscal Year 2005–06” (A-03-07-00207), “Review of Disproportionate Share Hospital Payments Made by
Pennsylvania to Penn State Milton S. Hershey Medical Center for State Fiscal Year 2005–06” (A-03-07-00208), and
“Review of Disproportionate Share Hospital Payments Made by Pennsylvania to University of Pittsburgh Medical
Center—Presbyterian/Shadyside for State Fiscal Year 2005–06” (A-03-07-00209).


                                                      2

Methodology

To accomplish our objective, we:

   •	 met with CMS staff to discuss revenue maximization programs initiated through 

      contingency fee contracts; 


   •	 reviewed the Maximus proposal for revenue maximization;

   •	 reviewed the contract between the State agency and Maximus;

   •	 discussed with CMS regional staff their intention to have the Office of Inspector General
      conduct this review;

   •	 reviewed the Omnibus Budget Reconciliation Acts of 1981 and 1993, sections 1902 and
      1923 of the Act, and Federal guidance applicable to the DSH program;

   •	 reviewed SPAs 05-014, 06-006, and 07-017 and the associated correspondence between
      the State agency and CMS;

   •	 reviewed CMS policies and procedures for approving SPAs;

   •	 reviewed State agency and hospital documents and discussed with hospital and university
      officials the use of the DSH payments;

   •	 reviewed the financial statements of the three hospitals and interviewed university
      officials to verify that the three hospitals and the State-related university medical schools
      were separate legal entities;

   •	 traced the receipt, disbursement, and accounting treatment of DSH payments authorized
      under SPAs 05-014 and 06-006;

   •	 discussed our audit results with hospital and university officials; and

   •	 discussed with CMS staff our audit results and the status of the approval process 

      concerning SPA 07-017. 


We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our finding and conclusions based on our audit objective.




                                                3

                          FINDING AND RECOMMENDATIONS 


One of the three hospitals, Hershey, retained its DSH payments, including a Federal share of
$7.6 million in State FY 2005–06 and $7.8 million in State FY 2006–07. However, the two
other hospitals did not retain their DSH payments, and the universities that received the money
may not have used it to help offset the medical assistance share of their medical education costs
in compliance with the SPAs. Specifically, Presbyterian and Temple redirected to their
university medical schools a total of $17.3 million (Federal share) in State FY 2005–06 and
$17.8 million (Federal share) in State FY 2006–07. The two hospitals did not require the
medical schools to account for how they used the funds. Accordingly, we could not determine
whether the medical schools used the DSH funds in compliance with the SPAs.

Before State FY 2005–06, the State made annual appropriations to the three State-related
universities expressly for medical education. Beginning in State FY 2005–06, the State
eliminated express appropriations for medical education from its appropriation bills. Officials of
the three hospitals informed us that the State had instructed the hospitals to redirect the DSH
funds provided under the SPAs, including Federal matching funds, to the universities associated
with the hospitals.

FEDERAL AND STATE PLAN REQUIREMENTS

Federal Requirements

Section 1903(a)(1) of the Act provides for Federal matching funds only for those expenditures
made by a State under an approved State plan. Federal regulations (42 CFR § 430.10) require
that the State plan describe “the nature and scope of its Medicaid program.” In addition, the
State plan should contain “all information necessary for CMS to determine whether the plan can
be approved to serve as a basis for Federal Financial participation . . . .”

State Plan Amendments

The State agency submitted SPA 05-014 to CMS on June 29, 2005. The SPA authorized DSH
payments of $45.5 million ($24.9 million Federal share) for State FY 2005–06 to “assure that
critical services to the Medical Assistance population will continue” and “to help offset the
Medical Assistance share of the medical education costs incurred by these hospitals.” (Emphasis
added.)

CMS requested additional information about the medical education program costs covered by the
SPA. The State agency answered that costs funded by the DSH payments included:

        . . . both direct and indirect medical education costs incurred by the qualifying
       academic medical centers related to Medical Assistance (MA) Program and
       uninsured patients . . . . These costs include the conducting of medical tests and
       procedures that have the dual purpose of providing experience to the residents in
       administering the tests and in analyzing the results for diagnosis and treatment
       purposes. [Emphasis added.]



                                                4

CMS approved SPA 05-014 in February 2006 (effective July 1, 2005). On September 25, 2006,
the State agency submitted a substantially similar SPA, 06-006, authorizing DSH payments of
$46.9 million ($25.6 million Federal share) for State FY 2006–07. CMS approved that SPA in
December 2006 (effective July 1, 2006). Both SPAs stated that DSH payments were to be used
to offset hospital medical education costs and did not authorize any other use of DSH funds.

DISPROPORTIONATE SHARE HOSPITAL PAYMENTS
REDIRECTED TO MEDICAL SCHOOLS

As shown in the following table, Hershey retained its DSH payments for each year reviewed.
Presbyterian and Temple did not retain their DSH payments but redirected them to their
associated universities.

                 Disproportionate Share Hospital Payments (Federal Share)

                           State FY 2005–06                       State FY 2006–07
     Hospital          Retained       Redirected               Retained       Redirected
  Hershey               $7,580,729               $0              $7,781,654             $0
  Presbyterian                   0        9,746,652                       0     10,004,984
  Temple                         0        7,580,729                       0      7,781,654
      Total             $7,580,729      $17,327,381              $7,781,654    $17,786,638

Before July 1, 2005, the State supported medical education through its annual appropriations to
the State-related universities. In State FY 2005–06, the State eliminated express appropriations
for medical education from its appropriation bills. The appropriation bills for State FYs 2006–07
and 2007–08 also did not contain funding expressly for medical education. Officials of the three
hospitals informed us that the State had instructed the hospitals to redirect the DSH funds
provided under the SPAs, including Federal matching funds, to the associated universities.

Presbyterian

Based on the methodology in the SPAs, DSH payments to Presbyterian were $17,804,000
($9,746,652 Federal share) in State FY 2005–06 and $18,339,261 ($10,004,984 Federal share) in
State FY 2006–07. As instructed by the State, Presbyterian redirected the DSH payments
authorized by the two SPAs to its associated School of Medicine, School of Dental Medicine,
Graduate School of Public Health, and Western Psychiatric Institute and Clinic. Presbyterian
recorded its transactions as contributions, which are not costs incurred by the hospital as required
by the State plan. Presbyterian did not require the schools to account for how they used the
funds.

Temple

Based on the methodology in the SPAs, DSH payments to Temple were $13,847,555
($7,580,729 Federal share) in State FY 2005–06 and $14,263,869 ($7,781,654 Federal share) in
State FY 2006–07. As instructed by the State, Temple redirected the DSH payments authorized
by the two SPAs to its associated School of Medicine, Maurice H. Kornberg School of Dentistry,


                                                 5

and School of Podiatric Medicine. Temple recorded its transactions as equity transfers, which
are not costs incurred by the hospital as required by the State plan. Temple did not require the
schools to account for how they used the funds.

ACTIONS TAKEN BY THE CENTERS FOR
MEDICARE & MEDICAID SERVICES

On September 27, 2007, the State agency submitted SPA 07-017 for State FY 2007–08. The
SPA estimated $47.1 million ($25.5 million Federal share) in DSH payments for that FY. The
SPA required that DSH payments be used to offset medical education costs and did not authorize
any other use of the funds.

On October 18, 2007, we informed the CMS regional office that the DSH payments for State
FY 2005–06 did not exceed the hospital-specific limits. We also informed the regional office
that the State had instructed the three hospitals to redirect DSH payments to university medical
schools.

CMS regional officials stated that they were unaware of the State’s instructions to the three
hospitals. As a result of our discussions, CMS headquarters officials presented the standard
National Institutional Reimbursement Team (NIRT) questions to the State agency, questioning
the intended use of funds authorized by the pending SPA. 3 CMS’s review procedures include
requesting responses to five standard funding questions, which begin:

           1. Section 1903(a)(1) provides that Federal matching funds are only available for
           expenditures made by States for services under the approved State plan. Do
           providers retain all of the Medicaid payments including the Federal and State
           share . . . or is any portion of the payments returned to the State, local
           governmental entity, or any other intermediary organization? If providers are
           required to return any portion of payments, please provide a full description of the
           repayment process . . . and the disposition and use of the funds once they are
           returned to the State . . . . 4

CMS advised us that it was awaiting the State agency’s responses to the funding questions before
making a determination on the SPA. 5 In a follow-up telephone conversation on May 30, 2008,
CMS stated that it had received the State agency’s responses, but CMS declined to discuss the
responses or its determination on the SPA until it received our draft report. Subsequent to our
draft report, CMS advised us that it had approved the SPA.



3
 NIRT is composed of individuals from CMS’s central and regional offices who review and recommend decisions
on all Medicaid institutional reimbursement SPAs. NIRT reports its recommendations to the Director of the Center
for Medicaid and State Operations, who has final authority to approve the SPAs.
4
 “Standard Funding Questions—Updated 9/30/05.” Internal document from CMS regional office. Attachment to
“Funding Questions,” e-mail message, November 30, 2007.
5
    “PA-SPA 07-017,” CMS, e-mail message, April 3, 2008.


                                                       6

RECOMMENDATIONS

We recommend that the State agency work with CMS to resolve:

   •	 $17,327,381 (Federal share) in DSH payments redirected to university medical schools in
      State FY 2005–06 and $17,786,638 (Federal share) in State FY 2006–07 and

   •	 DSH payments redirected to university medical schools after our review period, including
      any portion of the $25.5 million estimated Federal share for State FY 2007–08.

STATE AGENCY COMMENTS

In written comments on our draft report, the State agency said that CMS had approved the SPAs
for State FYs 2005–06, 2006–07, and 2007–08. The State agency agreed to work with CMS on
any future academic medical center SPAs but said that it was not aware of any Federal regulation
or legislation that requires the three hospitals to retain their DSH payments. The State agency’s
comments are presented in their entirety as the Appendix.

OFFICE OF INSPECTOR GENERAL RESPONSE

The SPAs for State FYs 2005–06 and 2006–07 stated that DSH payments were to be used to
offset hospital medical education costs and did not authorize any other use of DSH funds.
Because Presbyterian and Temple did not require the medical schools to account for how they
used the funds, we could not determine whether the DSH funds were used in compliance with
the SPAs. We revised our second recommendation to acknowledge CMS’s approval of the SPA
for State FY 2007–08 subsequent to our review. We support our recommendations, as revised,
and agree that the State agency should work with CMS on any future academic medical center
SPAs.




                                               7

APPENDIX

APPENDIX
 Page 1 of 2
APPENDIX
 Page 2 of 2 

